           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


        CONTROLS OVER THE
 SOCIAL SECURITY ADMINISTRATION’S
    PROCESSING CENTER ACTION
          CONTROL SYSTEM

    February 2004   A-14-03-23076




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM

Date:   February 3, 2004                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Controls over the Social Security Administration’s Processing Center Action Control
        System (A-14-03-23076)


        OBJECTIVE

        Our objectives were to determine whether Processing Center Action Control System
        (PCACS) transactions were (1) properly controlled and resolved in accordance with
        established Social Security Administration (SSA) business priorities and standards, and
        (2) were accurately reported to management.

        Our review indicated that PCACS transactions were properly controlled and resolved in
        accordance with established procedures, and the information presented in management
        reports was accurate. However, we determined that the aging of workload items did not
        represent a true and complete picture to ensure management had the reliable and
        complete information necessary for decision making purposes.

        BACKGROUND
        PCACS is the Agency’s national workload control system for the Processing Centers
        (PC). Workload items consist of computer output, electronically faxed forms, and mail
        room items that the PCs receive on a daily basis concerning initial claims and post-
        entitlement activities that cannot be handled by field offices. These items require
        research by PC personnel to determine and carry out the necessary course of action, if
        any. PCACS replaced the local case control systems previously in place at its eight
        PCs.1 PCACS is housed on the mainframe computers located in SSA’s National
        Computer Center in Woodlawn, Maryland. This system contains all computer output,
        electronically faxed forms, and mailroom items that the PCs receive on a daily basis.
        One of the primary functions of PCACS is to distribute workload items through its
        paperless processing system to appropriate PC personnel for control and resolution.
        Approximately 70 percent of each PC’s annual workload is comprised of computer
        output workload items which are electronically generated from approximately

        1
         The eight PCs include six regional Program Service Centers, the Office of Disability Operations, and the
        Office of International Operations.
Page 2 – The Commissioner


27 computer processing sources. PCACS tracks the age and status of each item, and
calculates workload and productivity reports for management reporting purposes.

PCACS SYSTEM

As illustrated in this                               PCACS Flowchart
flowchart, computer-
generated items come          Software programs
                                                                   Electronically
into PCACS through the         (AERO, BRI, etc.)
                                                                    Faxed Items               Mail Room Items

Computer Output
Section (COS).
Electronically faxed         Computer-Generated
                                     Items
items and mail room          (Exceptions & Alerts)                       PCACS Site Location:
                                                                                  PC1 - PC8
items, however, go                                 PCACS Site
directly to PC sites (PC1                           Location:
                                                     Computer
through PC8) without                               Output Section
                                                                     CURRENT
                                                                   WORKLOAD:
                                                                                                 HOLD
                                                       (COS)                                 LOCATIONS:
first being placed into                                               Backlog
                                                                     Screening
                                                                                            Development Hold

COS. Items are either                                                Processing
                                                                   Payment Hold
                                                                                               Misc. Hold


moved automatically
from COS to PC sites                                              COMPLETED
                                                                                                 Purged
(non-cyclical items), or                                              ITEMS:
                                                                   “End of Line”
                                                                                                  Data

stay in COS until moved
by management
(cyclical items). Once items are placed in a PC site location (PC1-PC8) they may move
among several operational locations,2 including hold locations, before being completed
and moved to an end-of-line location.

CALCULATING THE AGE OF WORKLOAD ITEMS

There are a number of ways to calculate the age of a workload item. Three of them are:
(1) true age, (2) operations age, and (3) site age, as follows:

    •   True Age: True age is the total elapsed time of a workload item. It includes time
        spent in all locations, including COS, processing locations (i.e., “in site”), and
        hold locations.

    •   Operations Age: Operations age is the elapsed time of a workload item,
        excluding time spent in COS.

    •   Site Age: Site age is the total time a workload item spent in processing
        locations, excluding time spent in COS and time spent in hold locations.




2
 Operational locations are locations in PCACS where items may be worked, such as backlog, screening,
and processing, or placed on hold, such as Development Holding File and Miscellaneous Holding File.
Page 3 – The Commissioner


SCOPE AND METHODOLOGY
To accomplish our objectives, we reviewed applicable policies, procedures, prior audits
related to PCACS issues, and management information reports related to PCACS. We
interviewed SSA personnel in Headquarters and two Program Service Centers (PSC),
the Northeastern PSC in Jamaica, New York and the Great Lakes PSC in Chicago,
Illinois.

We tested a random sample of completed workload items and items in hold locations at
the two PSCs and recalculated the age of all items in the PCACS master file, including
COS items and items in hold locations.

We performed our fieldwork between April and August 2003. During the PSC visits, two
members of PricewaterhouseCoopers staff assisted us with the testing of completed
workload items and items in hold locations as part of SSA’s annual financial statement
audit. We conducted our review in accordance with generally accepted government
auditing standards.

We determined PCACS data to be sufficiently reliable for our intended use. We tested
workload items recorded in the PCACS master file, and determined that the data was
sufficiently reliable to achieve our audit objectives and would not lead to an incorrect or
unintentional conclusion.

RESULTS OF REVIEW

Our review indicated that PCACS transactions were properly controlled and resolved in
accordance with established procedures and the information presented in management
reports was accurate. However, we determined that the aging of workload items did not
represent a true and complete picture to ensure management had the reliable and
complete information necessary for decision making purposes. SSA produces many
standard and ad-hoc management reports that capture and summarize workload
information from the PCACS master file. According to the Commissioners’ Message in
the Fiscal Year (FY) 2002 Performance and Accountability Report,3 “SSA is committed
to providing data that is complete and reliable to those who use it for decision making.”
The Agency’s workload information can be misleading because management
information reports do not include calculations of the substantial time that workload
items spend in the COS and in various hold locations.




3
 Social Security Administration’s Performance and Accountability Report for Fiscal Year 2002,
November 19, 2002, p.1.
Page 4 – The Commissioner


TRUE AGE WAS NOT INCLUDED IN MANAGEMENT REPORTS

We found SSA uses site age for the majority of its management reports. True age or
operations age is not usually presented. We calculated the effect of not showing the
true age or the operations age for each PC (as of June 13, 2003)4 and found significant
differences. As shown in Exhibit A, their overall “true age” is 59 percent higher then the
site age, as follows:

       Exhibit A. True Age, Operations Age, and Site Age (All PCs)
                                  Total     Average      Average       Average     Average True Age
     Processing Center            Items       True      Operations     Site Age      as percentage
                                              Age          Age          (Days)      increase of Site
                                             (Days)       (Days)                          Age
PC1 – Northeastern PSC            77,684        64.4        42.5         29.2         120.5%
PC2 – Mid-Atlantic PSC            76,184        68.4        43.3         27.4         149.6%
PC3 – Southeastern PSC            80,788        52.8        25.8         17.1         208.8%
PC4 – Great Lakes PSC             73,864        72.7        36.2         26.3         176.4%
PC5 – Western PSC                110,105        73.1        52.0         45.1           62.1%
PC6 – Mid-America PSC            119,555        83.3        43.5         24.5         240.0%
PC7 – Office of Disability       551,416       121.7        99.3         94.1           29.3%
        Operations
PC8 – Office of International     69,726        148.0       136.9        72.3         104.7%
        Operations
Weighted Overall Averages       1,159,322        99.4        74.7        62.5          59%
(All PCs)


The Office of Management and Budget requires agencies to have management controls
in place to “…ensure government resources are used efficiently and effectively to
achieve intended program results.”5 Management controls include management
information reporting policies and procedures that ensure reliable and timely information
is reported and used for decision making.6

Management reports are used to monitor workflow, project pending workloads, and
assess performance within the PCs. Because SSA omitted this important information
from its management reports, SSA did not have a complete picture of how old items
were or how long it took to process and resolve items, and consequently, it could not be
assured that it fully achieved desired results.

TIME SPENT IN COS WAS NOT INCLUDED IN AGING CALCULATIONS

COS is a component location in PCACS where computer-generated alerts and
exceptions are placed until they are transferred to an operational location for
processing. Many items spend only 1 or 2 days in COS before being automatically
transferred to operational locations. These items are generated from computer runs

4
  We extracted all open PCACS action control records from the PCACS master file as of June 13, 2003,
and calculated the true age, operations age, and site age for all items.
5
  Office of Management and Budget, Circular A-123, Management Accountability and Control, Section I.
6
  Ibid at Section II.
Page 5 – The Commissioner


that generate a steady flow of workload items throughout the year, often from daily or
monthly runs.

However, items of a cyclical nature (called “COS controlled” items) are generated on an
infrequent basis and usually create a large number of workload items all at once. In
FY 2002, over 2.5 million of the 10.6 million total items (or 24 percent) that flowed
through COS during the FY were COS controlled items. COS controlled items are not
automatically moved by the system to operational locations in PCACS. These items
stay in COS until management moves them to operational locations according to
workload priority to prevent an overwhelming influx.

For example, Automated Earnings Reappraisal Operation (AERO) items are generated
semiannually and Benefit Rate Increases (BRI) are generated annually. SSA’s
FY 2003 National Processing Center Workplan (Workplan) specified that each PC work
100 percent of “priority” BRI workloads7 and 75 percent of AERO workloads by the end
of the FY. The Workplan does not specify when the remaining AERO and BRI
workloads will be completed. Other than the annual workload goals specified in its
Workplan, the Agency does not have written policies regarding the movement of cyclical
COS items out of COS to the operational locations in PCACS. The timeframes for
metering cyclical items from COS to operational locations vary greatly as determined by
local PC management.

Due mostly to the cyclical nature of the COS controlled items; time spent in COS can be
significant. Also, depending on the timing of the cyclical workloads and the metering of
workload items from COS to operational locations, the average age of COS items can
fluctuate greatly throughout the year. We calculated the average age of all COS items
varied from 41 to 192 days throughout FY 2003, and the average age of all COS items
for all of FY 2003 (through August 8, 2003) was 109 days. As of the date of our detailed
testing (June 13, 2003), the average age of all COS controlled items was
184 days, and the actual age of individual COS controlled items ranged from
0 to 1,119 days.

While separate management reports included aging data for items currently in COS,
once an item leaves COS, the time counter starts over and all aging calculations are
then based on the date the item left COS. Therefore, once an item leaves COS, the
amount of time a workload item spent in COS is not included in standard management
reports. As a result of the true age not being available, management’s decisions
regarding the allocation of resources is based on incomplete information. Time spent in
COS can significantly impact the timeliness of service delivery to the American public.




7
    Priority BRI workloads were 46.7 percent of the total BRI workloads for FY 2002.
Page 6 – The Commissioner


TIME SPENT IN HOLD LOCATIONS WAS NOT INCLUDED IN AGING
CALCULATIONS

Hold locations are operational locations in PCACS, such as the development hold file
(DHF) location and miscellaneous hold file (MHF) location where items are placed when
they cannot be worked. Hold locations may be used for several reasons, such as:

        − Awaiting receipt of additional information from the beneficiary, another
          agency, or a third party;
        − Awaiting a key date before which the action cannot be processed;
        − When action is expected to be completed in less than 7 days; and
        − Advance filed claims, which cannot be processed until closer to the month of
          entitlement.

SSA practices do not permit the placement of items into hold locations for the purpose
of concealing or terminating site age. During our review of selected items at the two
PSCs (Northeastern and Great Lakes), we did not find any items had been placed into
hold locations for impermissible reasons.

PCACS has the ability to produce ad-hoc reports based on either operations or site age,
but does not have the ability to produce reports using true age. However, the initiation
date is stored on the PCACS master file and, after making the appropriate software
modifications, the true age could be calculated using the initiation date. Currently, the
majority of standard reports that are normally distributed or are readily available to
management are based on site age, and therefore, do not reflect either operations age
or true age.

SSA uses site age in management reporting because there are events that can occur
that prevent personnel from taking action to complete a workload item in a timely
fashion that are not within the PC’s control. Accordingly, for purposes of assessing
performance, SSA management does not penalize personnel for time that is considered
outside of their control. While we agree that this rationale has its merits, management
reports may be used for reasons other than for assessing individual performance and,
consequently, we believe it presents an incomplete picture.

For example, there is no indication on the weekly National PSC Processing Reports
(also called the National PACER Reports) that any ages other than site and location8
ages are available, nor is there any mention that the site age calculation excludes time
spent in COS and hold locations. This is also true for the National PSC Workload
Reports and Workload Query Reports. In fact, the description of the site aging
calculation in the PACER report documentation (if available to the report’s user) which
explains how the report is constructed is contradictory because it suggests that site age
is the same as operations age. SSA asserted that items in hold locations can be

8
 Location age is the amount of time a workload item has been in its current functional level in PCACS.
This age varies depending on the functional level presented in the management report. Location age is
sometimes presented in management reports (along with site age), and is most often presented at the
component or site level. Because it is seldom used, it is not otherwise discussed in this report.
Page 7 – The Commissioner


monitored on a national level, as well as by PC staffs and individual component
managers using the Intranet reports. However, while this report provides information on
items in hold locations such as DHF and MHF, again, it only shows site and location
ages and not operations or true age, making it impossible for report users to correctly
assess the age of these items.

We determined the amount of time items spend in hold locations can be significant. For
example, for items in hold locations as of June 13, 2003, we calculated the average
number of days these items spent in hold was 74.3 days.9 As a result of the true age
not being available, management’s decisions regarding the allocation of resources is
based on incomplete information. Time spent in hold can significantly impact the
timeliness of service to the American public.

Using PCACS Standard Statistical Reports, we calculated the average site age and
average operations age for each category of workload items to further demonstrate the
effect of items in hold locations. The difference between the site and operations ages
represents time spent in hold locations. This difference was often substantial. For
example, we identified 39 categories of items having a difference of at least 60 days
between the site age and operations age. Appendix B shows 10 of the 39 categories.
Because management reports showed only site age, it was impossible for report users
to ascertain the average true age of these items.

CONCLUSIONS AND RECOMMENDATION
It is important for the Agency to have complete management information to ensure it is
providing quality service and stewardship to the American public. To make informed
management decisions, including monitoring workflow, projecting workloads, and
assessing performance, management reports must include timely, reliable, and
complete information. While we found that management reports were timely and
appeared to be reliable, they did not represent a complete picture of the aging of
workload items. As a result, the timeliness of processing actions such as
overpayments, reconsideration requests, inquiries from the public and Congress,
payment of attorney fees, and determinations of fraudulent transactions, may be
affected.

We recommend SSA include the true age, operations age, and site age of its workload
items in its standard management reports.

AGENCY COMMENTS AND OIG RESPONSE

In response to our draft report, SSA did not agree with our recommendation. While we
continue to believe that having this information would be useful to the Agency in helping
it to better manage its resources, we recognize that there are other ways that would

9
  We calculated the average time spent in hold for items in hold locations as of June 13, 2003, by
calculating the total number of days that items in hold locations had spent in hold through June 13, 2003,
and divided the total by the number of items. As of June 13, 2003, there were 157,545 items in hold
locations for a total of 11,712,722 hold days.
Page 8 – The Commissioner


allow SSA to do this to some degree. However, if resources become available to allow
the Agency to provide this information, then we believe it would be beneficial to do so.
The text of SSA’s comments is included in Appendix C.




                                                James G. Huse, Jr.
                                 Appendices
APPENDIX A – Acronyms

APPENDIX B – Examples of Largest Age Differences (as of June 13, 2003)

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
 AERO      Automated Earnings Reappraisal Operation
 BRI       Benefit Rate Increases
 COS       Computer Output Section
 DHF       Development Hold File
 FY        Fiscal Year
 MHF       Miscellaneous Hold File
 PCACS     Processing Center Action Control System
 PC        Processing Center
 PSC       Program Service Center
 SSA       Social Security Administration
                                                                                         Appendix B
Examples of Largest Age Differences (as of June 13, 2003)


                                                                      AVG.     AVG.       AVG.         AVG.
                                                                      SITE    OPER.      TRUE         HOLD
     PC    Category   Description of Category               No. of    AGE      AGE       AGE***        TIME
                                                          Items in   (Days)   (Days)                  (Days)
                                                          Category
1    PC8   DISAB      Disability Related Actions            1,130     81.7    739.4        Not        657.7
                                                                                       determinable
2    PC1   INQ        Inquiries from beneficiaries, the     308       48.4    529.6        Not        481.2
                      public, field offices, and other                                 determinable
                      government agencies
3    PC6   FRAUD      Fraud related issues                  104      234.5    649.6        Not        415.1
                                                                                       determinable
4    PC1   OTHER      Miscellaneous actions                1,828      41.1    273.3        Not        232.2
                                                                                       determinable
5    PC1   APPEAL     ALJ Hearings, Appeals Council        1,415      24.9    224.3        Not        199.4
                      Actions and Court Remands                                        determinable
6    PC8   SPEC       Special Studies                       270       72.6    215.4        Not        142.8
                                                                                       determinable
7    PC1   ATFEE      Attorney Fee Actions                 1,586      39.2    181.6        Not        142.4
                                                                                       determinable
8    PC1   RECON      Reconsideration requests             1,167      75.0    203.7        Not        128.7
                                                                                       determinable
9    PC1   CHECK      Checks and Electronic Funds          6,017      18.0    145.6        Not        127.6
                      Transfer issues                                                  determinable
10   PC1   OPMT       Overpayments                         10,043     56.8    183.9        Not        127.1
                                                                                       determinable
                      TOTAL ITEMS                          23,868

***True age was not determinable because PCACS cannot currently provide any reports based on true
age.
                  Appendix C

Agency Comments
                                            SOCIAL SECURITY

MEMORANDUM                                                                           97-24-1060


Date:      January 6, 2004                                                           Refer To: S1J-3

To:          James G. Huse, Jr.{PRIVATE }
             Inspector General

From:        Larry W. Dye /s/
             Chief of Staff

Subject:     Office of the Inspector General (OIG) Draft Report, “Controls Over the Social Security
             Administration’s Processing Center Action Control System” (A-14-03-23076)--
             INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comment to the recommendation is
           attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Janet Carbonara at extension 53568.

           Attachment:
           SSA Response




                                                          C1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“CONTROLS OVER THE SOCIAL SECURITY ADMINISTRATION’S PROCESSING
CENTER ACTION CONTROL SYSTEM” (PCACS) A-14-03-23076

We are pleased that your review found that PCACS transactions are properly controlled and
resolved in accordance with established procedures and that the information in management
reports is accurate. However, we disagree with the conclusion that the failure to track “true age”
and “operations age” in the management reports adversely affects the timeliness of processing
actions.

Below are our comments to the recommendation.

Recommendation:

Include the true age, operations age, and site age of workload items in standard management
reports.

Comment:

The OIG acknowledges that there are a number of ways to calculate the age of workload items.
We do not believe that showing additional measures, such as “true age” or an “operations age,”
on standard management reports, would improve the timeliness of processing actions.

Managers have access to the time actions spend in all locations, including the length of time the
actions spend in the Computer Output Section (COS). Overall age (true age) shown on
management reports would not enhance SSA’s ability to control or manage its workloads. COS
was established to allow the Processing Centers (PC) to manage cyclical workloads, such as the
Automated Earnings Reappraisal Operation and Benefit Rate Increases, by distributing them
evenly throughout the year without adversely affecting other work with higher priorities. These
cyclical workloads are routinely tracked from the time the actions are downloaded into COS
until they are processed. Managers use the length of time actions spend in COS, in conjunction
with other management information, to help them monitor workflow, assess performance, and
project the work they need to process in the future.

Showing “operations age,” which adds the time actions spend in holding file locations to site age
(the time spent in processing locations), would also not help SSA manage its work. Holding file
time is used to control work that is outside of the control of a PC; i.e., they are waiting for
additional information from a beneficiary or an attorney. The time that actions spend in holding
files is monitored and controlled. Showing operations age on standard management reports
would not enhance the timeliness of processing actions or enhance SSA’s ability to control and
manage its workloads.




                                             C2
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

Kitt Winter, Director, Data Analysis and Technology Audit Division
(410) 966-9702

Albert Darago, Audit Manager, Data Analysis and Technology Audit Division
(410) 965-9710

Acknowledgements
In addition to those named above:

  Anita McMillan, Senior Systems Auditor

  Charles Zaepfel, IT Specialist

  Annette Derito, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-14-03-23076.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
